                     U. S. SMALL BUSINESS ADMINISTRATION 

                           OFFICE OF INSPECTOR GENERAL 

                             INVESTIGATIONS DIVISION 

                               WASHINGTON, DC 20416 




                                  September 15, 2008



The Honorable Gregory H. Friedman
Inspector General
U.S. Department of Energy
1000 Independence Avenue, SW
Washington, DC 20585

Subject: Report on the Quality Assessment Review of the Investigative Operations of the
         Office of Inspector General for the U.S. Department of Energy

Dear Mr. Friedman:

We have reviewed the system of internal safeguards and management procedures for the
investigative function of the Office ofInspector General (OIG) for the U.S. Department
of Energy (DOE) in effect for the one-year period ending May 14,2008. Our review was
conducted in confonnity with the President's Council on Integrity and Efficiency
(PCIE)/Executive Council on Integrity and Efficiency (ECIE) Quality Standards for
Investigations, the Quality Assessment Review Guidelines established by the PCIE arid
ECIE, and the Attorney General's Guidelines for Offices of Inspector General with
Statutory Law Enforcement Authority, as applicable.

In our opinion, the system of internal safeguards and management procedures for the
investigative function of the DOE/OIG in effect for the period ending May 14, 2008, is in
full compliance with the Quality Standards established by the PCIE/ECIE and the
Attorney General Guidelines. These safeguards and procedures provide reasonable
assurance that DOE/OIG is confonning with professional standards in the conduct of its
investigations.

 We reviewed the DOE/OIG's compliance with its system ofintemal policies and
.procedures. The review was conducted at the headquarters' office in Washington, DC,
 and the field office in Albuquerque, NM. Additionally, we sampled 30 case files for
 investigations closed during the previous 12-month period.

In perfonning our review, we considered the requirements of Section 6( e) of the Inspector
General Act of 1978 (as amended) and Section 812 of the Homeland Security Act of 2002
(Pub.L. 107-296). These statutes authorize law enforcement powers for eligible personnel
of each of the designated offices of presidentially appointed Inspectors General. Those
powers may be exercised only for activities authorized by the Inspector General Act of
1978, other statutes, or as expressly authorized by the Attorney General.
Please thank your staff for their cooperation during the peer review and for being
responsive to our requests. The professionalism shown by your staff in discussing and
resolving issues enhanced the peer review.

Sincerely,


~ W-.rA:.L
Peter McClintock
Acting Inspector General

cc:    The Honorable Michael Mukasey
       U.S. Attorney General

       The Honorable Patrick O'Carroll 

       Inspector General, Social Security Administration 

       Chairman, PCIE Investigations Committee 

